U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 22, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Anderson Alexander v. United States of America,
S.Ct. No. 20-5537

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 26,
2020, and placed on the docket on August 31, 2020. The government’s response is due on
September 30, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 30, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5537
ALEXANDER, ANDERSON
USA

MICHAEL L. SCOTT
ASSISTANT FEDERAL PUBLIC DEFENDER
NORTH/SOUTH. DIST.OF MISS.
200 SOUTH LAMAR STREET
SUITE 200-N
JACKSON, MS 39201
601-948-4284
MIKE_SCOTT@FD.ORG

